BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-641
LSP TRANSMISSION HOLDINGS, LLC,

Petitioner,
v.
KATIE SIEBEN, ET AL,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief for Petitioner contains 2,981
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on February 10, 2021.

~
DoU:Ua J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

